               U.S. ENVIRONMENTAL PROTECTION AGENCY
               OFFICE OF INSPECTOR GENERAL



                                              Catalyst for Improving the Environment


Early Warning Report

             EPA Should Use FMFIA to
             Improve Programmatic Operations
             Report No. 09-P-0203

             August 6, 2009




   GAO                                                                     FMFIA
 Standards




   OMB                                                                     EPA
  Circular                                                                 Order
   A-123                                                                  1000.24
Report Contributors:                               Patrick Gilbride
                                                   Erin Barnes-Weaver
                                                   Karen L. Hamilton
                                                   Bryan Holtrop
                                                   Mary Anne Strasser




Abbreviations

EPA            U.S. Environmental Protection Agency
FMFIA          Federal Managers’ Financial Integrity Act
FY             Fiscal Year
GAO            Government Accountability Office
GPRA           Government Performance and Results Act
NPM            National Program Manager
OCFO           Office of the Chief Financial Officer
OIG            Office of Inspector General
OMB            Office of Management and Budget
OPPTS          Office of Prevention, Pesticides, and Toxic Substances
ORD            Office of Research and Development
OSWER          Office of Solid Waste and Emergency Response
PART           Program Assessment Rating Tool




Cover photo:     Cover of EPA guidance document, Management Integrity at EPA: A
                 Manager’s “How To” Guide for Program Reviews: Seeing the Forest and the
                 Trees (EPA-205-B-96-001, March 1996), and other management integrity
                 guidance.
                       U.S. Environmental Protection Agency                                    Report No. 09-P-0203
                                                                                                     August 6, 2009
                       Office of Inspector General


                       At a Glance
                                                                         Catalyst for Improving the Environment


Why We Did This Review           EPA Should Use FMFIA to
We conducted this review to      Improve Programmatic Operations
determine how the U.S.
Environmental Protection          What We Found
Agency (EPA) develops
annual guidance under the        EPA has not implemented and used FMFIA to improve program operations, as
Federal Managers’ Financial      intended by federal and Agency guidance. Although EPA offices rely on annual
Integrity Act (FMFIA). We        guidance that the Office of the Chief Financial Officer (OCFO) issues,
asked whether EPA offices
integrate FMFIA internal
control standards into              EPA offices have not developed internal control review strategies that include
programmatic operations. We          elements such as the Government Performance and Results Act (GPRA);
also asked whether offices use      OCFO’s guidance and training have not provided staff and managers with
Government Accountability            adequate awareness of GAO’s internal control standards;
Office (GAO) guidance to            OCFO’s guidance, until recently, has not required offices to report on
develop and monitor internal
controls.                            compliance with all GAO standards; and
                                    OCFO did not devote needed resources to validate assurance letters.
Background
                                 Per Agency guidance, OCFO is responsible for ensuring and implementing a
FMFIA requires federal           strategy for validating EPA’s compliance with FMFIA. However, OCFO relies on
agency managers to annually      Assistant and Regional Administrators to verify letters’ program elements before
evaluate and indicate whether    certifying them. EPA offices view FMFIA reporting as an administrative task,
their agencies’ internal         rather than an opportunity to assess program results and identify risks toward
controls comply with             achieving goals. As a result, the Administrator has little assurance when signing
standards prescribed by GAO.
                                 EPA’s letter that offices reviewed program operations. Additional emphasis on
FMFIA requirements purport
to provide reasonable            FMFIA’s importance could result in more certain, documented assurance in the
assurance that agencies          Agency’s Performance and Accountability Report that EPA programs annually
maintain adequate internal       evaluate internal controls to comply with GAO’s standards and deter fraud, waste,
control systems to prevent       and mismanagement.
against fraud, waste, abuse,
and mismanagement.
                                  What We Recommend

                                 We recommended that EPA’s Administrator support internal controls by
                                 announcing the Fiscal Year (FY) 2010 FMFIA process and requiring that senior
For further information,         managers attend training. We also recommended that the Chief Financial Officer
contact our Office of            develop comprehensive, tiered FMFIA training for managers and staff; revise the
Congressional, Public Affairs    internal checklist used as part of the strategy for validating Agency-wide FMFIA
and Management at                compliance; codify its validation strategy; and develop FY 2010 FMFIA guidance
(202) 566-2391.
                                 that contains OCFO FY 2009 supplemental guidance. EPA initially agreed with
To view the full report,         all but one of our recommendations. The Agency agreed when we revised that
click on the following link:     recommendation’s language to focus on OCFO’s internal tool to validate letters.
www.epa.gov/oig/reports/2009/
20090806-09-P-0203.pdf
                      UNITED STATES ENVIRONMENTAL PROTECTION AGENCY
                                   WASHINGTON, D.C. 20460


                                                                                        OFFICE OF
                                                                                   INSPECTOR GENERAL



                                          August 6, 2009

MEMORANDUM

SUBJECT:               EPA Should Use FMFIA to Improve Programmatic Operations
                       Report No. 09-P-0203


FROM:                  Melissa M. Heist
                       Assistant Inspector General for Audit

TO:                    Lisa P. Jackson
                       Administrator
                       Office of the Administrator

                       Maryann Froehlich
                       Acting Chief Financial Officer
                       Office of the Chief Financial Officer


The Office of Inspector General (OIG) of the U.S. Environmental Protection Agency (EPA)
conducted this report on the subject audit. This report contains findings that describe problems
we identified and corrective actions we recommend. This report represents our opinion and does
not necessarily represent the final EPA position. EPA managers will make final determinations
on matters in this report in accordance with established audit resolution procedures.

The estimated cost of this report – calculated by multiplying the project’s staff days by the
applicable daily full cost billing rates in effect at the time – is $212,476.

Action Required

In accordance with EPA Manual 2750, EPA’s Audit Management Process, you are required to
provide a written response to this report within 90 calendar days. You should include a
corrective actions plan for agreed upon actions, including milestone dates. We have no
objections to the further release of this report to the public. This report will be available at
http://www.epa.gov/oig.

If you or your staff has any questions regarding this report, please contact me at (202) 566-0899
or heist.melissa@epa.gov, or Patrick Gilbride, Director for Audit, Risk and Program
Performance Issues, at (303) 312-6969 or gilbride.patrick@epa.gov.
EPA Should Use FMFIA to Improve Programmatic Operations                                                   Report No. 09-P-0203



                                  Table of Contents
          Purpose ..................................................................................................................   1

          Background ...........................................................................................................       1

          Scope and Methodology .......................................................................................                6

          Findings .................................................................................................................   7

          Conclusion ............................................................................................................. 11

          Recommendations ................................................................................................ 12

          Agency Comments and OIG Evaluation.............................................................. 13

          Status of Recommendations and Potential Monetary Benefits ........................ 14



Appendices
          A Agency Response to Draft Report ................................................................. 15

          B Distribution ...................................................................................................... 19
                                                                         Report No. 09-P-0203


Purpose
          We conducted this review to determine how EPA develops and uses annual
          guidance under the Federal Managers’ Financial Integrity Act (FMFIA). We
          asked whether EPA offices fully integrate internal control standards under FMFIA
          into their programmatic operations. We also asked whether EPA offices use
          available Government Accountability Office (GAO) guidance to develop and
          monitor their internal controls. We found that several EPA offices had not
          demonstrated compliance with GAO’s Standards for Internal Control in the
          Federal Government in Fiscal Year (FY) 2008 assurance letters. While EPA’s
          FY 2009 FMFIA reporting ends in mid-August 2009, we wanted to communicate
          our observations and recommendations to influence the FY 2009 process and
          enhance how the Agency develops FY 2010 guidance.

Background
          Federal Management Integrity Criteria

          FMFIA requires federal agency managers to establish internal accounting and
          administrative controls in accordance with standards prescribed by the
          Comptroller General (hereafter referred to as “GAO’s Standards”). FMFIA
          requires federal agency managers to annually evaluate and report on the
          effectiveness of internal controls and financial accounting systems in accordance
          with, respectively, Sections 2 and 4 of FMFIA. FMFIA also requires federal
          agency managers to annually evaluate, in accordance with Office of Management
          Budget (OMB) guidelines, whether their agencies’ internal controls comply with
          GAO’s Standards and issue a statement of assurance and indicate full compliance
          or non-compliance.

          OMB Circular A-123, dated December 21, 2004, describes federal managers’
          responsibilities for internal control, stating that management is responsible for
          establishing and maintaining internal control to achieve the objectives of (1)
          effective and efficient operations, (2) reliable financial reporting, and (3)
          compliance with applicable laws and regulations. Appendix A of the Circular
          requires federal agencies to separately assess effectiveness of internal controls
          over financial reporting. The Circular also states that “Management shall
          consistently apply the internal control standards to meet each of the internal
          control objectives and to assess internal control effectiveness.” OMB Circular A-
          123 provides guidance to federal managers on meeting requirements of FMFIA.
          The Circular states that “Internal control guarantees neither the success of agency
          programs, nor the absence of waste, fraud, and mismanagement, but is a means of
          managing the risk associated with Federal programs and operations.” By
          including “programs and operations,” OMB emphasized goals set by the
          organization, risks agencies face in meeting those goals, whether agencies have
          identified and assessed risks, and whether agencies have taken steps to manage
          those risks. The Circular requires federal managers to take systematic and


                                           1
                                                                       Report No. 09-P-0203


proactive measures to develop and implement appropriate internal controls for
results-oriented management.

The Circular describes the requirements of FMFIA as “an umbrella under which
other reviews, evaluations, and audits should be coordinated and considered to
support management’s assertion about the effectiveness of internal control over
operations, financial reporting, and compliance with laws and regulations.”
“Other reviews” that FMFIA reporting should coordinate and consider include
activities under the Government Performance and Results Act (GPRA), such as
developing strategic plans, setting performance goals and measures, and reporting
annually on actual performance results compared to goals. These efforts all
support an overall internal control framework illustrated in Figure 1.1.

Figure 1.1: EPA’s Internal Control Program – A Visual Overview




Source: EPA training, EPA Internal Control and Management Integrity: Make It Second Nature,
issued (via EPA’s Intranet) on May 28, 2008 (slide 11 of 21).

As required by FMFIA, GAO established the Standards for Internal Control in
the Federal Government listed in OMB Circular A-123 (see Table 1.1 on the next
page).

The Standards provide the overall framework for establishing and maintaining
internal control, and for identifying and addressing performance and management
challenges and areas at greatest risk of fraud, waste, abuse, and mismanagement.
The Standards compose a major part of managing an organization, including
plans, methods, and procedures used to meet missions, goals, and objectives and,
in doing so, support performance-based management.


                                      2
                                                                                               Report No. 09-P-0203


                  Table 1.1: GAO’s Standards for Internal Control in the Federal Government
                  1.        Control      This standard establishes and maintains an environment
                         Environment     throughout the organization that sets a positive and supporting
                                         attitude toward internal control and conscientious
                                         management. This includes establishing goals, objectives,
                                         and performance measures at the entity and activity level.
                  2.         Risk        Once the goals, objectives, and measures have been defined,
                         Assessment      the risks that could impede the efficient and effective
                                         achievement of those objectives are identified. This includes
                                         an assessment of the risks the agency faces from both
                                         internal and external sources. Risk assessment includes
                                         identifying and analyzing relevant risks associated with
                                         achieving objectives, such as those defined in strategic and
                                         annual performance plans developed under GPRA, and form
                                         a basis for determining how to manage risks. Management
                                         needs to comprehensively identify risks and should consider
                                         all significant interactions between the entity and other parties
                                         as well as internal factors at both the entity-wide and activity
                                         levels.
                  3.        Control      These are the policies, procedures, techniques, and
                           Activities    mechanisms that implement management’s direction toward
                                         achievement of goals. Internal control activities help ensure
                                         that management’s directives are carried out.
                  4.   Information and This standard includes data and information (performance and
                      Communications financial) to determine whether the organization is meeting its
                                         goals and objectives and maintaining accountability over
                                         resources.
                  5.      Monitoring     Internal control monitoring should assess the quality of
                                         performance over time and ensure that findings of audits and
                                         other reviews are promptly resolved.
                  Source: OIG summary of GAO’s Standards for Internal Control in the Federal Government,
                  GAO/AIMD-00-21.3.1 (November 1999).

                  EPA Management Integrity Guidance and Policy

                  EPA issued Order 1000.24, Management’s Responsibility for Internal Control, as
                  the Agency’s strategy for implementing FMFIA. The Order specifies how EPA:

                               Prescribes policies, procedures, and standards for internal controls at
                                EPA.
                               Outlines Agency senior managers’ roles and responsibilities for
                                developing, implementing, assessing, documenting, improving, and
                                reporting on internal controls.
                               Incorporates specific requirements for assessing internal controls over
                                financial reporting.
                               Provides tools to help managers monitor both overall program
                                progress and the effectiveness of day-to-day operations (e.g., EPA
                                Management Integrity Principles1).


1
 EPA first developed its Management Integrity Principles in 1996. The 10 Principles are (1) guidance, (2)
accountability, (3) feedback, (4) competency, (5) quality data, (6) separation, (7) comparison, (8) identification,


                                                           3
                                                                                         Report No. 09-P-0203


                 EPA Order 1000.24 requires the Administrator to foster an environment that
                 supports awareness and compliance with internal controls. EPA’s Order also
                 requires Assistant and Regional Administrators to develop systematic review
                 strategies and advises them to use GAO’s Standards as the basis for determining
                 the effectiveness of internal controls. The Order also requires senior managers to
                 annually evaluate whether their programs’ internal controls effectively meet
                 GAO’s Standards and attest to the soundness of internal controls for their
                 respective organizations. Per EPA’s Order, senior managers annually issue
                 assurance letters to the Administrator that report results of evaluations and their
                 programs’ compliance status with GAO’s Standards. The Order requires that
                 systematic review strategies are consistent and coordinate with Agency-wide
                 processes used to develop and report on program performance measures and
                 results, such as GPRA and reviews under OMB’s Program Assessment Rating
                 Tool (PART). For example, EPA’s Office of the Chief Financial Officer (OCFO)
                 annually issues National Program Manager (NPM) guidance to promote
                 consistency, describe priorities and strategies, and report on performance
                 commitments in order to strengthen planning and accountability processes and
                 better align measures.

                 The Order further designates senior managers (e.g., Deputy Administrator,
                 Assistant, and Regional Administrators) to implement internal control
                 frameworks and assure continual progress to strengthen internal controls
                 (reported annually in EPA’s Performance and Accountability Report). The
                 Order also requires senior managers to designate a Management Integrity
                 Advisor who serves as the organization’s staff contact responsible for
                 disseminating pertinent information regarding the Agency’s management
                 integrity program. The Order outlines specific responsibilities for OCFO listed
                 in Table 1.2 (on the next page).




(9) review, and (10) correction. EPA advocates that managers incorporate the Principles into existing management
processes, program strategies, and guidance to strengthen program operations.


                                                        4
                                                                                          Report No. 09-P-0203


                 Table 1.2: OCFO Responsibilities per EPA Order 1000.24
                  Chief Financial Officer

                         Develop and administer EPA’s guidance to ensure compliance with FMFIA
                          and OMB Circular A-123;
                         Ensure that the Agency implements FMFIA and OMB Circular A-123 at
                          appropriate organizational levels; and
                         Provide annual management integrity/A-123 guidance to the Agency.
                  Office of Planning, Analysis, and Accountability

                         Plan, develop, and implement national policies for ensuring EPA’s
                          compliance with FMFIA;
                         Develop and implement a strategy for validating Agency-wide compliance
                          with FMFIA;
                         Develop the form and content of the Administrator’s annual statement of
                          assurance on management controls based on recommendations and
                          annual assurance letters from senior managers/senior assessment team;
                         Maintain technical expertise in the field of internal controls;
                         Provide technical assistance to program managers and staff; and
                         Provide supplemental guidance and training materials as needed to support
                          senior managers in interpreting and applying EPA Order 1000.24.
                 Source: EPA Order 1000.24 “Management’s Responsibility for Internal Control” (July 18,
                 2008).

                 OCFO issues annual guidance to program and regional offices on complying with
                 FMFIA, and for FYs 2008 and 2009, OCFO’s guidance included a reporting
                 template with specific instructions for completing each section of assurance
                 letters. For example, in FYs 2008 and 2009, OCFO’s annual guidance included
                 seven specific elements program and regional offices needed to address in
                 assurance letters under the Control Environment standard.2 OCFO’s guidance
                 also listed significant financial processes to review, such as accounts receivable,
                 grants, procurement, accounts payable, and payroll, as well as core administrative
                 areas (e.g. purchase card, property management, funds control). OCFO also
                 attached the Internal Control Evaluation Checklist, an abbreviated version of
                 GAO’s full Internal Control Management and Evaluation Tool that Assistant and
                 Regional Administrators could use to evaluate their internal controls. The FY
                 2009 guidance required offices to complete the Checklist and retain a copy as
                 supporting documentation. The FY 2009 guidance also provided references to
                 obtain full text of GAO’s Standards and EPA’s Order. Program and regional
                 office assurance letters provide the basis for the Agency’s annual assurance
                 statement. The Agency’s Performance and Accountability Reports due to the
                 President and Congress each year describe progress made to strengthen internal
                 controls.

2
 OCFO identified the following seven “control environment” elements for which offices needed to report in
assurance letters: (1) integrity and ethical values, (2) commitment to competence, (3) management’s philosophy and
operating style, (4) organizational structure, (5) assignment of authority and responsibility, (6) human resource
policies and practices, and (7) oversight groups. OCFO said it drew these elements from GAO’s Standards and
focused on them due to past questions from Agency offices on the control environment.


                                                        5
                                                                                     Report No. 09-P-0203


Scope and Methodology
                We conducted our review, in accordance with Government Auditing Standards,
                from January to May 2009.3 Government Auditing Standards require that we plan
                and perform the review to provide a reasonable basis for our findings and
                conclusions, and we believe the evidence we obtained meets that standard based
                upon our review objectives. Our review findings only address EPA’s
                implementation of Section 2 of FMFIA (internal control over programs), and not
                Section 4 (financial accounting systems) or Appendix A of OMB Circular A-123
                (internal control over financial reporting). While evaluating how EPA’s Office of
                Research and Development (ORD) implements FMFIA,4 we identified issues
                related to OCFO’s Agency-wide management integrity guidance. We reviewed
                OCFO’s FY 2009 FMFIA guidance issued on December 22, 2008. Following
                OCFO’s issuance of FY 2009 guidance, we participated in meetings that OCFO
                held on the Agency’s FY 2009 FMFIA reporting process, and spoke with OCFO
                about enhancing its reporting template. We provided written comments to OCFO
                on January 30, 2009, suggesting that they revise the FY 2009 FMFIA guidance
                reporting template. We also reviewed FY 2008 assurance letters from three
                program5 and four regional6 offices, and interviewed the Management Integrity
                Advisors in each office on their awareness and understanding of internal controls
                and examples of internal control compliance in assurance letters. The
                size/resource budget of program and regional offices we reviewed include some
                of the largest dollar and full-time equivalent components of the Agency, and
                OCFO recommended three of the seven offices as examples of good FMFIA
                processes/assurance letters.7

                Recently, the Office of Inspector General (OIG) issued a memorandum
                recommending ways to strengthen management integrity processes affecting
                specific activities under the American Recovery and Reinvestment Act of 2009,8
                whereas this report addresses EPA’s FMFIA reporting process generally. We
                issue this early warning report to bring to the Agency’s attention findings that
                could impact FMFIA reporting by EPA offices in FY 2009 (reports due to the
                Administrator by August 14, 2009) and to influence development of FY 2010
                guidance.




3
  Related facts and observations arose during our current review of ORD’s FMFIA implementation.
4
  We anticipate issuing our final report on ORD’s FMFIA implementation in the fall of 2009.
5
  We reviewed fiscal 2008 FMFIA assurance letters from EPA’s ORD, Office of Solid Waste and Emergency
Response (OSWER), and Office of Prevention, Pesticides, and Toxic Substances (OPPTS).
6
  We reviewed fiscal 2008 FMFIA assurance letters from EPA Regions 1, 2, 5, and 9.
7
  OCFO recommended that we review assurance letters from OSWER, OPPTS, and Region 5.
8
  US EPA OIG Special Report, Recommendation to Strengthen Management Integrity Processes Affecting Recovery
Act Activities, Report No. 09-X-0145, April 27, 2009.


                                                     6
                                                                        Report No. 09-P-0203


Findings

           EPA Offices Have Not Developed Systematic Internal Control Review
           Strategies

           Based on our review of FY 2008 assurance letters, all seven EPA offices we
           examined had not developed strategies that systematically and annually assess the
           effectiveness and compliance of their programmatic internal controls with GAO’s
           Standards. Our review found that strategies did not address whether offices
           established and evaluated internal controls over their programs in accordance with
           GAO’s Standards. In addition, strategies did not address implementation of other
           statutory requirements such as GPRA or annual performance plans and
           performance measures associated with NPM Guidance. For example, 2008 NPM
           Guidance for OSWER identified six priority areas under its remedial program;
           however neither the OSWER nor regional assurance letters we reviewed
           addressed these priority areas or measures. Similarly, NPM Guidance for EPA’s
           clean air program identified priority areas specifically for the Agency’s regional
           offices, such as reducing diesel emissions; however, no regional letter we
           reviewed mentioned risks or accomplishments related to that goal. We found that
           strategies did not use GAO’s Standards and did not consider program
           performance information such as GPRA measures. Further, most Advisors
           described FMFIA as primarily addressing administrative and financial elements
           (as opposed to program performance), and all Advisors acknowledged that their
           offices had not conducted risk or vulnerability assessments to identify needed
           controls. OCFO recently issued a document to explain roles and responsibilities
           between Advisors and lead region program staff. OCFO believes its document
           will allow regions an opportunity to provide a consolidated regional perspective
           to the appropriate NPM on current weaknesses or other emerging issues.

           EPA Order 1000.24 requires that Assistant and Regional Administrators develop
           and implement strategies to show how they will evaluate their internal controls
           and the information they will use to report how they comply with FMFIA in their
           annual assurance letters. The Order states that program managers have flexibility
           in designing review strategies and directs them to use all credible sources of
           information to assess effectiveness of internal controls. Information sources
           specified by the Order include OIG and GAO audits, program evaluations, PART
           or other similar reviews, and knowledge gained from daily operations. The Order
           also notes that, in addition to FMFIA, managers should consider “other statutory
           requirements” (such as GPRA) as part of the Agency’s system of internal
           controls, and that “processes, plans, policies, procedures, and performance
           measures help organizations achieve results.” The Order further states that
           Assistant and Regional Administrators should conduct their own reviews to
           ensure they have the information necessary to make their evaluations (including a
           plan to validate whether they achieved desired results). Further, OCFO’s FY
           2008 FMFIA guidance required that Assistant and Regional Administrators
           provide a detailed description of their review strategies for assessing how well


                                            7
                                                                                          Report No. 09-P-0203


                 internal controls over their programs perform, may be improved, and the degree to
                 which they identify and address significant vulnerabilities. Results of these
                 systematic review strategies provide the basis for annual assurance letters upon
                 which the Administrator relies to assess the Agency’s overall compliance with
                 FMFIA.

                 Agency Staff and Managers Need Additional Internal Control Training

                 Advisors we interviewed had a range of training experience on FMFIA
                 requirements. The majority of Advisors (four of seven) we interviewed believed
                 they could benefit from additional training, especially on internal control
                 standards and programmatic reviews.9 One senior manager suggested that OCFO
                 consider tiered training for senior managers and Advisors that emphasizes,
                 respectively, requirements per EPA Order 1000.24 and “nuts and bolts” of
                 implementing and reporting (such as required administrative reviews, reporting
                 elements, and milestone dates). Advisors suggested other elements, including
                 training on:

                             Conducting internal control reviews for program staff (not just
                              financial staff), and
                             Making OCFO’s checklist useful for senior managers, perhaps by
                              including specific programmatic examples.

                 EPA Order 1000.24 requires OCFO’s Office of Planning, Analysis, and
                 Accountability to provide technical assistance and training to support program
                 managers and staff. In FY 2008, OCFO offered a discretionary online training
                 course, moderated by the Deputy Administrator, to briefly introduce internal
                 control responsibilities. In 2008, in collaboration with OIG staff, OCFO offered
                 staff-level training for Management Integrity Advisors that outlined basic steps
                 for conducting a program review and provided tools and examples of how to
                 document results of reviews. In response to requests for technical assistance,
                 OCFO staff conducted individual management integrity briefings for senior
                 managers in two offices.10 Additionally, OCFO holds one to two “kick-off”
                 meetings or teleconferences with Management Integrity Advisors and senior
                 managers upon issuing the annual guidance/template, which both OCFO and
                 Advisors view as training on FMFIA requirements.

                 OCFO agrees on the need for more in-depth training on assessing risk, developing
                 program review strategies based on GAO’s Standards, and reporting on how key
                 activities fit together and expects to develop a strategy for comprehensive, tiered
                 training by the end of FY 2009.



9
  During our interviews, we had to define and describe GAO’s Standards to most Advisors. Most Advisors were
also not familiar with EPA’s 1996 guidance document that listed the Agency’s ten management integrity principles.
10
   OCFO said it briefed managers in OSWER and the Administrator’s Office.


                                                        8
                                                                                                Report No. 09-P-0203


                  OCFO Recently Strengthened Its FMFIA Guidance to Better Align
                  with EPA Order 1000.24

                  In FY 2008 OCFO revised its guidance from previous years to require that
                  Agency senior managers evaluate their program’s internal controls in accordance
                  with GAO’s five standards. As an attachment to the guidance, OCFO included an
                  assurance letter template that provided “specific instructions” for reporting results
                  of internal control evaluations. However, the template only required reporting on
                  one of the five GAO Standards, “control environment.” OCFO explained that it
                  outlined this standard in detail because Advisors and others expressed the greatest
                  confusion over what to include in a discussion of “control environment.” OCFO
                  believes its guidance implicitly requires program and regional offices to apply
                  GAO’s Standards and that, by following OCFO’s guidance, offices will in effect
                  address all five standards. OCFO staff said it was not their responsibility to
                  dictate to program and regional offices what to include in their program review
                  strategy or how to conduct their assessments. However, OCFO agreed that its
                  responsibility includes providing direction on steps in the FMFIA reporting
                  process, and OCFO’s annual guidance and template specifies the reporting format
                  EPA offices must follow. OCFO acknowledges that most offices follow their
                  template. Management Integrity Advisors we interviewed said OCFO’s guidance
                  provides administrative processes for completing assurance letters, and all
                  Advisors stated they followed OCFO’s guidance/template. During our
                  interviews, we found that half of the Advisors were not familiar with GAO’s
                  Standards. Despite this, all Advisors we interviewed believed their offices’
                  assurance letters addressed all five standards, but could not provide examples as
                  to how letters addressed the Standards. All but one assurance letter we reviewed
                  did not comprehensively address the seven “control environment” elements
                  specified in Agency FMFIA guidance.11 All assurance letters we reviewed did
                  not indicate that offices had conducted “risk assessment” on vulnerabilities
                  toward meeting program goals, and did not assess and report on performance
                  measures (a “control activity”).

                  In its FY 2009 FMFIA guidance issued on December 22, 2008, OCFO maintained
                  the same template from FY 2008 guidance requiring that assurance letters address
                  only the “control environment” standard, but not the other four GAO Standards.
                  We met with OCFO in January 2009 on ways to enhance the FY 2009 template to
                  address all standards and documented our suggestions in a memorandum to the
                  Acting Chief Financial Officer.12 We undertook our review of seven offices’ FY
                  2008 assurance letters to find further support for our suggestions to OCFO. Our
                  ongoing communications with OCFO,13 coupled with newly developed
                  management integrity processes affecting specific activities under the American

11
   Region 9’s fiscal 2008 assurance letter provided a detailed description of activities related to all seven control
environment elements.
12
   Melissa Heist, OIG’s Assistant Inspector General for Audit, issued the memorandum to Maryann Froehlich,
EPA’s Acting Chief Financial Officer, on January 30, 2009.
13
   We briefed OCFO on our letter review results on April 14, 2009, and in a draft report issued on May 5, 2009.


                                                            9
                                                              Report No. 09-P-0203


Recovery and Reinvestment Act of 2009, resulted in OCFO’s decision to issue
supplemental FY 2009 FMFIA guidance. We reviewed OCFO’s draft
supplemental guidance and suggested specific text – including programmatic
examples – for OCFO to provide in its guidance. OCFO’s supplemental FY 2009
FMFIA guidance, issued on May 19, 2009, included our suggestions. OCFO’s
supplemental guidance:

          Revised language for the general statement of assurance that all
           Assistant and Regional Administrators must include in assurance
           letters to more clearly address whether they assessed internal controls
           and comply with GAO’s Standards;
          Defined all five GAO Standards; and
          Provided examples of programmatic activities related to each GAO
           Standard.

OCFO Has Not Validated Annual Assurance Letters

OCFO said its validation strategy does not include validating the content and
accuracy of offices’ assurance letters. OCFO assumes offices take seriously
statements in assurance letters asserting compliance, and noted that accountable
officials – Assistant and Regional Administrators – should verify assurance letter
content to make compliance determinations. Management integrity staff in
OCFO’s Office of Planning, Analysis, and Accountability said they assume that if
an office conducted a review and indicated no material weaknesses, then that
office did what it was supposed to do. OCFO does not ask offices to show that
everything is fine.

EPA Order 1000.24 requires OCFO to develop and implement a strategy for
validating Agency-wide compliance with FMFIA and OMB Circular A-123. To
date, OCFO has not compiled a written strategy but said it will to include
activities such as annual guidance, kick-off meeting and update meetings, and
ongoing communication with Advisors – all of which we view as providing
guidance and advising up-front as opposed to validating end results. Management
Integrity Advisors we interviewed expect OCFO to communicate any problems
with their offices’ assurance letters. Advisors assumed their FY 2008 assurance
letters met reporting requirements since OCFO accepted letters without comment.
OCFO told us that when it receives assurance letters from program and regional
offices, OCFO reviews them primarily for completeness against guidance and to
identify current and new material weaknesses, management challenges, and
emerging issues that warrant the Administrator’s attention. OCFO uses an
internal checklist to ensure that offices’ letters addressed template headings and
other requirements from OCFO’s annual guidance. OCFO acknowledged that it
does not review assurance letters to verify that offices reported all internal and
external reviews, results of those reviews related to programmatic controls, or
whether offices addressed all elements in the checklist excerpted from GAO’s




                                10
                                                                                              Report No. 09-P-0203


                  tool. To date, OCFO has limited resources to oversee annual FMFIA reporting on
                  programmatic elements,14 and OCFO considers its staffing levels adequate.

                  OCFO acknowledged, however, that financial reporting has received emphasis
                  over the past few years given extensive reporting requirements in that area in
                  OCFO’s annual guidance (e.g. accounts receivable, grants, procurement and
                  accounts payable, payroll, purchase card, property management, funds control).
                  OCFO’s staff person responsible for management integrity said focus swung too
                  far in the direction of financial reviews, thus missing programmatic elements.15
                  When we asked whether OCFO intended to review fiscal 2009 assurance letters
                  against GAO’s Standards, OCFO responded, “Only in that we have asked offices
                  to comply with the checklist.” OCFO has not required offices to provide copies
                  of completed checklists; rather offices will retain them for their records. We
                  found that for FY 2008 letters we reviewed, offices did not use or complete the
                  checklist. This year, OCFO has planned a new program compliance review to
                  identify major problem areas and “work with a contractor on where weaknesses
                  are in the FMFIA implementation process” at selected Headquarters and regional
                  offices to correct the Agency’s management integrity approach in FY 2010.
                  OCFO’s review will identify areas where OCFO should strengthen its guidance,
                  and gather specific input for developing training plans. We believe OCFO could
                  use program compliance review results to also revise its validation strategy to
                  include, at a minimum, how EPA offices meet each of the five GAO Standards
                  and annually evaluate internal controls established under GAO’s Standards.
                  Program compliance reviews could also determine the extent to which offices
                  incorporate GPRA measures and NPM Guidance elements into their FMFIA
                  reporting and internal control structure. Additionally, OCFO should describe
                  components of its validation strategy in FY 2010 guidance to make clear to EPA
                  offices what OCFO uses to review assurance letters.

Conclusion
                  Because OCFO did not require – and program and regional offices did not
                  evaluate and report on – compliance with GAO’s Standards in FY 2008, EPA
                  risked not fully complying with FMFIA. These actions gave the Administrator no
                  documented basis upon which to make a compliance determination when signing
                  the Agency’s FY 2008 letter. Assistant and Regional Administrators issue

14
   OCFO said it relies on a “team” to focus on the programmatic aspect; however we found that OCFO relies upon
one project lead in its Office of Planning, Analysis, and Accountability. OCFO said other groups help review
financial/administrative elements, such as financial reporting and oversight on grants and contracts.
15
   OCFO staff said focus shifted shortly after Congress enacted the Sarbanes-Oxley Act on July 30, 2002. The
legislation set new or enhanced standards for all U.S. public company boards, management and public accounting
firms and addressed issues relating to (1) auditor independence, (2) corporate responsibility, (3) enhanced financial
disclosures, and (4) accountability and certifying financial results. OMB revised Circular A-123 on December 21,
2004, in light of new internal control requirements for publicly-traded companies contained in the Sarbanes-Oxley
Act of 2002. Then Comptroller Linda Springer said in a memorandum, “The policy changes in this circular are
intended to strengthen the requirements for conducting management’s assessment of internal control over financial
reporting.”


                                                          11
                                                                      Report No. 09-P-0203


        assurance letters to the Administrator without utilizing strategies that provide a
        sound, documented basis for reasonably assuring that their programs implement
        effective internal controls consistent with EPA Order 1000.24 and comply with
        GAO’s Standards. The Agency’s OCFO-driven FMFIA process has emphasized
        administrative and financial reporting over programmatic performance and – until
        recently – has not integrated other relevant Agency-wide processes such as annual
        performance plans, measures, and results to evaluate internal controls. OCFO’s
        recent emphasis on all five GAO internal control standards, as well as increased
        awareness through training, could help EPA offices improve certifications to the
        Administrator that they have effective and efficient program operations.

Recommendations
        We recommend that the Chief Financial Officer:

               1. Develop a training course on FMFIA that provides (a) senior managers
                  with an overall understanding on internal controls and their
                  responsibilities in EPA Order 1000.24, and (b) Management Integrity
                  Advisors with details on implementing and reporting.

               2. Develop fiscal 2010 FMFIA guidance and a reporting template that
                  requires reporting all five GAO Standards to ensure consistency with
                  OMB Circular A-123 and EPA Order 1000.24. Incorporate language
                  in supplemental FMFIA guidance issued on May 19, 2009, into fiscal
                  2010 guidance.

               3. Revise the internal checklist that OCFO uses as part of its strategy for
                  validating Agency-wide FMFIA compliance to confirm that EPA
                  offices addressed each of the five GAO standards in evaluating their
                  internal controls and identifying weaknesses. Describe, in its annual
                  Agency guidance, OCFO's strategy for assessing offices' assurance
                  letters for compliance.

        We also recommend that the Administrator foster an environment that supports
        internal control by:

               4. Announcing the FY 2010 FMFIA process that describes the
                  significance of annual FMFIA reporting and certification that
                  programs comply with GAO’s Standards.

               5. Requiring all Senior Executive Service members, GS-15 managers,
                  and Management Integrity Advisors to attend OCFO’s initial FMFIA
                  training course and annual updates.




                                        12
                                                                        Report No. 09-P-0203


Agency Comments and OIG Evaluation
         The Agency agreed with our draft report findings and concurred with our
         recommendations for strengthening EPA’s FMFIA implementation. Initially
         OCFO disagreed with our third recommendation previously worded, “Determine
         staffing levels needed to implement requirements in EPA Order 1000.24 and
         invest adequate resources to validate annual assurance letters against
         administrative, financial, and programmatic review elements.” OCFO said it
         relies on Assistant and Regional Administrators’ signed personal statements of
         assurance as the cornerstone of OCFO’s validation strategy and as the primary
         form of validating compliance with GAO internal control standards. We met with
         OCFO to clarify that our recommendation did not imply that EPA Order 1000.24
         required OCFO to independently test the content of EPA offices’ assurance
         letters; a mandate which OCFO said would require detailed programmatic
         knowledge, technical expertise, and substantial resources. We agree that OCFO
         lacks the technical expertise and resources necessary to perform in-depth reviews
         of letter contents. However, we believe “validating” includes OCFO’s assurance
         that offices applied all relevant information – consistent with our report findings –
         to support signed assurance statements. As such, we discussed with OCFO how
         its validation strategy should address how OCFO assesses how each EPA office
         met – and annually evaluated internal controls established under – each of GAO’s
         five standards. We revised our recommendation wording to reflect our
         discussions and consensus with OCFO. OCFO agreed and said it plans to revise
         the internal checklist it uses to validate assurance letters to include GAO’s five
         standards. OCFO believes it has adequate resources to revise and apply this
         validation strategy. OCFO also believes EPA offices are equipped to address
         expanded requirements (i.e. all five GAO standards) under the planned FY 2010
         FMFIA process. Further, OCFO indicated that its validation strategy is unwritten
         but includes: (1) signed assurance statements, (2) annual guidance, (3) regular
         meetings, (4) training and technical assistance, (5) internal checklist against which
         to review assurance letters, and (6) program compliance reviews. We suggested –
         and OCFO agreed – that it should codify this validation strategy in annual
         guidance to make clear to EPA offices how OCFO validates Agency-wide
         FMFIA compliance. Appendix A includes EPA’s full response.




                                          13
                                                                                                                            Report No. 09-P-0203




                                 Status of Recommendations and
                                   Potential Monetary Benefits

                                                                                                                              POTENTIAL MONETARY
                                                    RECOMMENDATIONS                                                            BENEFITS (in $000s)

                                                                                                                Planned
    Rec.    Page                                                                                               Completion      Claimed   Agreed To
    No.      No.                          Subject                        Status1        Action Official           Date         Amount     Amount

     1       12     Develop a training course on FMFIA.                     O        Chief Financial Officer


     2       12     Develop FY 2010 FMFIA guidance and a reporting          O        Chief Financial Officer
                    template that requires reporting all five GAO
                    Standards to ensure consistency with OMB
                    Circular A-123 and EPA Order 1000.24.
                    Incorporate language in supplemental FMFIA
                    guidance issued on May 19, 2009, into FY 2010
                    guidance.

     3       12     Revise the internal checklist that OCFO uses as         O        Chief Financial Officer
                    part of its strategy for validating Agency-wide
                    FMFIA compliance to confirm that EPA offices
                    addressed each of the five GAO standards in
                    evaluating their internal controls and identifying
                    weaknesses. Describe, in its annual Agency
                    guidance, OCFO's strategy for assessing offices'
                    assurance letters for compliance.

     4       12     Announce the FY 2010 FMFIA process that                 O            Administrator
                    describes the significance of annual FMFIA
                    reporting and certification that programs comply
                    with GAO Standards.

     5       12     Require that all Senior Executive Service               O            Administrator
                    members, GS-15 managers, and Management
                    Integrity Advisors attend OCFO’s initial FMFIA
                    training course and annual updates.




1    O = recommendation is open with agreed-to corrective actions pending
     C = recommendation is closed with all agreed-to actions completed
     U = recommendation is undecided with resolution efforts in progress




                                                                                14
                                                                              Report No. 09-P-0203


                                                                                     Appendix A

                   Agency Response to Draft Report
                                          July 16, 2009

MEMORANDUM

SUBJECT:       OCFO Response to Draft Audit Report: EPA Should Use FMFIA to Improve
               Programmatic Operations (Project No. 08-FY08-0323)

FROM:          Maryann Froehlich /signed by/    Joshua Baylson
               Acting Chief Financial Officer

TO:            Melissa M. Heist
               Assistant Inspector General for Audit

       This memorandum responds to the Office of Inspector General (OIG) draft audit report,
EPA Should Use FMFIA to Improve Programmatic Operations (Project No. 08-FY08-0323),
dated June 22, 2009.

        The Office of the Chief Financial Officer (OCFO) appreciates your consideration of the
comments and suggestions we offered on the discussion draft report, EPA Federal Managers’
Financial Integrity Act (FMFIA) Process Improvements, and the resulting modifications
reflected in this draft report. We are now responding to you on behalf of both OCFO and the
Office of the Administrator (OA), as your report was issued to both offices. We have worked
closely with OA to prepare the following consolidated response, which represents the views of
both offices.

         In general, OA and OCFO agree with the findings presented in the draft report and
support the majority of OIG’s recommendations for strengthening EPA’s FMFIA
implementation. We will be working together to implement recommendations for the
Administrator to continue emphasizing to senior managers the importance of FMFIA and of
sound internal controls. We do, however, remain concerned about Recommendation 3—that
OCFO “invest adequate resources to validate annual assurance letters against administrative,
financial, and programmatic review elements.” We continue to work closely with program and
regional offices to strengthen their implementation of FMFIA and ensure a sound basis for their
letters of assurance to the Administrator, which provide the foundation for the Administrator’s
overall statement of assurance. We believe that OCFO is fulfilling its responsibility, outlined in
EPA Order 1000.24, to implement a strategy for validating Agency-wide compliance with the
Integrity Act.

        Please find attached our responses to each of the recommendations contained in the draft
report. As we have agreed with Patrick Gilbride (via a July 1, 2009 email exchange), we will
provide planned completion dates for all recommendations once OIG has issued its final report.



                                                15
                                                                              Report No. 09-P-0203


In addition, I have attached a copy of the draft report that we have annotated with a few specific
comments and suggestions. If you would like to discuss these attachments further, please have
your staff contact Debbie Rutherford (202-564-1913) or Annette Morant (202-564-3671) in
OCFO’s Office of Planning, Analysis, and Accountability.

       We appreciate your sharing these findings and recommendations with OCFO and OA,
and we look forward to working with you to strengthen the Agency’s management integrity
program.

Attachments

cc:      Scott Fulton
         Ray Spears
         Josh Baylson
         Rita Smith
         Stefan Silzer
         Patrick Gilbride
         Erin Barnes-Weaver

                                  OCFO and OA Response to
                              OIG Draft Report Recommendations:

                  EPA Should Use FMFIA to Improve Programmatic Operations
                                 Project No. OA-FY08-0323
                                       June 22, 2009


1. Develop a training course on FMFIA that provides (a) senior managers with an overall
   understanding on internal controls and their responsibilities in EPA Order 1000.24, and (b)
   Management Integrity Advisors with details on implementing and reporting.

      Concur. OCFO agrees that further training is needed at both senior manager and
      Management Integrity Advisor (MIA) levels. At a June meeting of Assistant Regional
      Administrators, Office of Planning, Analysis, and Accountability (OPAA) staff led a brief
      discussion to help identify training needs and potential approaches and mechanisms. We
      continue to consult with MIAs to determine their training and information needs. In addition,
      beginning in late July/early August, OCFO will be conducting contractor-supported Program
      Compliance Reviews in several selected regional and program offices. Preliminary surveys
      and the on-site reviews will help to diagnose training needs and inform development of
      training tools and materials. (OCFO expects the on-site reviews also to provide some “on the
      spot” training/assistance to MIAs in participating offices.) In addition, OCFO is dedicating
      contract resources to a more comprehensive training effort, and we will be working with
      training experts to explore vehicles/mechanisms for delivering the training. We expect to
      complete development of an Agency-wide strategy for comprehensive, tiered FMFIA
      training by the end of fiscal year 2009.




                                                 16
                                                                             Report No. 09-P-0203


2. Develop fiscal 2010 FMFIA guidance and a reporting template that requires reporting all five
   GAO standards to ensure consistency with OMB Circular A-123 and EPA Order 1000.24.
   Incorporate language in supplemental FMFIA guidance issued on May 19, 2009, into fiscal
   2010 guidance.

   Concur. OCFO agrees on the need to revise our guidance and assurance letter template so
   that assurance letters clearly address all five GAO standards. The Acting CFO’s February
   19, 2009 memo to the Assistant Inspector General for Audit makes this commitment for FY
   2010. In developing FY 2010 guidance, we will incorporate elements of the FY 2009
   supplemental guidance issued on May 19, including an emphasis on the need for all
   programs to comply with the five GAO standards for internal control and the revised
   Assistant Administrator (AA) and Regional Administrator (RA) assurance statement
   certifying compliance with the GAO standards.

3. Determine staffing levels needed to implement requirements in EPA Order 1000.24 and
   invest adequate resources to validate annual assurance letters against administrative,
   financial, and programmatic review elements.

   Disagree. EPA holds AAs and RAs accountable for their integrity programs and internal
   controls. OCFO relies on AAs’ and RAs’ signed personal statements of assurance as the
   primary form of validation of compliance with GAO standards for internal control. These
   signed statements testify to the soundness of the internal controls established to protect EPA
   programs from fraud, waste, and abuse. EPA Order 1000.24 requires that OPAA “develop
   and implement a strategy for validating Agency-wide compliance with FMFIA.” The signed
   letters of assurance to the Administrator are the cornerstone of this strategy. OPAA staff use
   a checklist to review annual assurance letters for completeness, ensuring that AAs and RAs
   have adequately addressed all elements set out in annual guidance, as well as to identify
   potential weaknesses or areas of concern for the Administrator’s attention. OPAA’s strategy
   for fostering compliance with FMFIA also includes issuing annual guidance, conducting
   regular meetings with senior managers to review roles and responsibilities, and providing
   training and technical assistance to Agency staff and managers.

   OCFO believes EPA Order 1000.24 was never intended to require that OCFO independently
   validate the content of each of 13 program office and 10 regional office assurance letters, a
   mandate which would require wide-ranging, detailed programmatic knowledge and technical
   expertise as well as substantial resources. OCFO does not agree that the responsibility for
   developing and implementing a strategy to validate the Agency’s compliance with FMFIA
   requires OCFO to “verify that offices reported all internal and external reviews” and the
   “results of those reviews related to programmatic controls” (p. 10). However, OPAA staff do
   carefully review letters to ensure that “offices addressed all elements in the checklist OCFO
   provided along with its’ FY 2008 and 2009 guidance (p. 10),” and we rely on AAs’ and RAs’
   statements of assurance that they have reviewed internal controls in compliance with GAO
   standards.

   OIG’s statement that “OCFO has one project lead—supported by additional staff—to oversee
   EPA’s management integrity program, including extensive administrative and financial
   reporting activities” is misleading. In fact, OCFO relies on a team within OPAA to focus on


                                               17
                                                                              Report No. 09-P-0203


   the overall Agency FMFIA implementation process and, in particular, the programmatic
   aspect, and a team within its Office of Financial Management to focus on Agency-wide
   financial activities, including controls over financial reporting. In addition, in reviewing
   assurance letters, OCFO collaborates with appropriate program offices, such as the Office of
   Administration and Resource Management and the Office of Environmental Information, to
   assess such components of assurance letters as discussion of grants and contracts, human
   capital, or data quality/information reporting systems.

   OCFO does, however, acknowledge the need to strengthen compliance with FMFIA and
   improve monitoring. Beginning in late July/early August 2009, OPAA will be initiating a
   series of Program Compliance Reviews in selected headquarters and regional offices. To
   augment OPAA efforts, contractor staff with expertise in FMFIA and internal controls will
   conduct on-site visits to assess offices’ documentation for their assurance letters and assist
   them in improving their FY 2010 FMFIA process. These activities will support efforts to
   ensure that assurance letters adequately reflect and validate Agency-wide compliance with
   FMFIA.

4. Announcing the FY 2010 FMFIA process that describes the significance of annual FMFIA
   reporting and certification that programs comply with GAO’s Standards.

   Concur. OCFO will work with the Office of the Administrator to develop an announcement
   or other communication from the Administrator to help launch the FY 2010 FMFIA process.
   The Administrator’s message will stress the importance of the integrity process and of AAs’
   and RAs’ assurance statements certifying compliance with GAO standards.

5. Requiring all Senior Executive Service members, GS-15 managers, and Management
   Integrity Advisors to attend OCFO’s initial FMFIA training course and annual updates.

   Concur. OCFO will work with OA to incorporate such a direction from the Administrator as
   part of its strategy for tiered, Agency-wide FMFIA training.




                                                18
                                                                            Report No. 09-P-0203


                                                                                  Appendix B

                                    Distribution
Office of the Administrator
Agency Follow-up Official (the CFO)
Agency Follow-up Coordinator
Acting General Counsel
Associate Administrator for Congressional and Intergovernmental Relations
Associate Administrator for Public Affairs
Audit Follow-up Coordinator, Office of the Administrator
Audit Follow-up Coordinator, Office of the Chief Financial Officer
Acting Inspector General




                                             19
